POSTAL REGULATORY COMMISSION
  OFFICE OF INSPECTOR GENERAL




  SEMIANNUAL REPORT TO CONGRESS

    October 1, 2009 through March 31, 2010
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
   THE POSTAL REGULATORY COMMISSION
       The Postal Regulatory Commission is an independent federal agency established
       (as the Postal Rate Commission) by the Postal Reorganization Act of 1970. From
       its establishment through the enactment of the Postal Accountability and
       Enhancement Act (PAEA) of 2006, the Commission primarily received United
       States Postal Service proposals for domestic mail rates and classifications,
       presided over litigation regarding those proposals, and recommended rates and
       classifications to the Board of Governors of the United States Postal Service.
       PAEA, which was enacted on December 20, 2006, re-designated the Commission,
       expanded its jurisdiction to include international mail and service standards, and
       charged the Commission with implementing a new system of postal rate
       regulation.

       The Postal Regulatory Commission consists of five Commissioners who are
       appointed for six-year terms by the President, with the advice and consent of the
       Senate. No more than three of the Commissioners can be members of the same
       political party. The President designates one of the Commissioners to serve as
       Chairman, and the Commissioners, by majority vote, select one Commissioner to
       serve as Vice Chairman.

       During the reporting, period the U.S. Postal Service initiated requests to the PRC
       to review the calculation of their Civil Service Retirement System (CSRS)
       pension liability and their proposal to end Saturday mail delivery. Also during the
       reporting period, the PRC issued an Advisory Opinion on Postal Service retail
       office closings and its second Annual Compliance Determination (ACD). In
       October 2009, Tony Hammond was elected Vice Chairman of the Postal
       Regulatory Commission.

   THE OFFICE OF INSPECTOR GENERAL
       The Commission established the Office of Inspector General (OIG) on June 15,
       2007 and hired the first Inspector General on June 23, 2007. During the
       reporting period, OIG had two full-time employees—the Inspector General and
       an administrative assistant. OIG was assisted in the conduct of its audits and
       inspections during the reporting period by auditors and evaluators on detail from
       the United States Postal Service Office of Inspector General and the Treasury
       Inspector General for Tax Administration.




                                        2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
         Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
         General provides policy direction and conducts, supervises and coordinates
         audits relating to programs and operations of the Postal Regulatory Commission.

         During the reporting period, OIG completed two final audit or inspection reports,
         which are summarized below:

         FINAL INSPECTION REPORT: ALTERNATE WORK SCHEDULE AND TELEWORK
         POLICIES

         OIG initiated a review of the PRC’s Alternate Work Schedule and Telework
         Policies to evaluate their reasonableness compared to other agencies. OIG found
         that Alternate Work Schedule and Telework policies were broadly comparable to
         the other agencies benchmarked, but identified five suggestions for management
         to consider to ensure clarity and flexibility for PRC employees.

         FINAL AUDIT REPORT: COMPENSATION CHANGES AND PERFORMANCE
         AWARDS

         OIG initiated an audit of the PRC’s compensation change and performance award
         systems. The objective of the review was to determine whether compensation
         changes and performance awards were properly supported and complied with the
         Commission’s procedures and practices. OIG found that PRC generally
         supported expenses for compensation changes and performance awards. We
         made three recommendations to improve record retention and internal controls
         over the performance awards process. Management agreed with these
         recommendations.

         ONGOING AUDITS AND EVALUATIONS

         Two inspections were ongoing at the close of the reporting period: (1) an
         inspection requested by both Chairman Edolphus Towns of the U.S. House
         Committee on Oversight and Government Reform and PRC Chairman
         Ruth Y. Goldway of the PRC’s handling of nonpublic information; and (2) a
         review of the adequacy of the data the PRC requests and receives in performing
         its oversight mission.

    INVESTIGATIVE ACTIVITIES
         Under the IG Act, OIG receives and investigates allegations of fraud, waste,



                                         3
     abuse and misconduct within Commission programs and operations. OIG
     investigations can give rise to administrative, civil and criminal penalties.

     In order to facilitate reporting of allegations, OIG maintains a hotline (see
     “Contacting the Office of Inspector General,” Page 8). During the reporting
     period, OIG received hotline contacts via postal mail, electronic mail and
     telephone. Many were complaints regarding the United States Postal Service,
     which OIG forwarded for action.

     OIG did not refer any matters for prosecution during the reporting period.

OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     informal comments regarding draft Commission regulations and policies,
     including revised alternate work schedule and telework policies, a revised travel
     policy, and proposed regulations establishing procedures for the exercise of the
     Commission’s statutory subpoena authority.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Council of Inspectors General on
     Integrity and Efficiency (CIGIE), which was established on October 14, 2008,
     pursuant to the Inspector General Reform Act of 2008. During the reporting
     period, the Inspector General attended monthly meetings of CIGIE as well as
     meetings of CIGIE’s Legislation and Information Technology Committees.




                                      4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.




                                     8
